           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   USE OF MENTAL CONSULTATIVE
       EXAMINATIONS BY THE
       WISCONSIN DISABILITY
      DETERMINATION BUREAU


     August 2003   A-01-03-23090



   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM

Date:   August 22, 2003                                                     Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From:   Assistant Inspector General
         for Audit

Subject: Use of Mental Consultative Examinations by the Wisconsin Disability Determination
        Bureau (A-01-03-23090)


        Our objective was to determine whether the Wisconsin Disability Determination Bureau
        (DDB) properly used mental consultative examinations (CE) in determining disability for
        Social Security beneficiaries.

        BACKGROUND
        On February 18, 2003, Senator Russell D. Feingold issued a letter to the Social Security
        Administration’s (SSA) Inspector General requesting that the Office of the Inspector
        General (OIG) review the DDB. In addition to this letter, the Senator provided us a
        package of information detailing an allegation against the DDB. Senator Feingold
        requested we determine what measures the DDB instituted regarding a complaint of
        racial discrimination made by his constituent. In response to the Senator’s request, we
        conducted a review to determine whether the Wisconsin DDB properly used mental CEs
        in determining disability for Social Security claimants.

        In evaluating a mental disorder as a basis for disability benefits, SSA requires evidence
        to establish both the existence of a medically determinable mental impairment and the
        degree of limitation caused by the impairment. The existence of a medically
        determinable impairment must be established by medical evidence consisting of signs,
        symptoms, and/or laboratory or psychological test findings. Such evidence is typically
        provided by the individual’s treating sources or by purchasing a CE. The CE report is
        used in combination with all other evidence in the case file to determine the existence
        and severity of any mental impairment(s) and whether the claim should be allowed.
        (See Appendix B for more information on CEs.)

        In December 2000, Senator Feingold’s constituent wrote to the Director of the
        Wisconsin Office of Affirmative Action and Civil Rights Compliance (AA/CRC) filing a
        civil rights complaint in which he requested a full and independent investigation of racial
        discrimination by the DDB. The constituent stated the DDB had selected a specific
Page 2 – James F. Martin


named psychologist (and perhaps a second psychologist) to evaluate cases in which
malingering1 was suspected. The constituent also stated, “It was clear to me that both
[the named psychologist] and the DDB knew that only pre-selected ‘malingering’ cases
were being sent to [the named psychologist].” The constituent also stated

        To adjudicators from other offices who do not know how they [the named
        psychologist’s CE reports] were obtained, these reports appear to be reasonable
        determinations of attempted fraud, fakery, lack of effort, or malingering. They
        [the named psychologist’s CE reports] are routinely used by the DDB to deny
        claims. The SSA Office of Hearing and Appeals, where they [the named
        psychologist’s CE reports] are used to deny claims upon appeal, also accepts
        them [the name psychologist’s CE reports] as valid.

AA/CRC referred this allegation to the DDB for analysis. We requested that the DDB
provide us with all data it used to determine the allegation’s validity.

SCOPE AND METHODOLOGY

To meet our objective, we:

    •   reviewed applicable sections of SSA’s policies and procedures;

    •   reviewed data provided by the DDB and SSA’s Chicago Regional Office staff;

    •   visited the DDB to discuss work performed regarding the allegation of racial
        discrimination; and

    •   met with staff from SSA’s Chicago Regional Office and AA/CRC to discuss their
        oversight role in assessing the allegation.

We performed our audit at the Wisconsin DDB in Madison, Wisconsin; at SSA’s
Regional Office in Chicago, Illinois; and in Boston, Massachusetts, between March and
June 2003. The entities audited were the Wisconsin DDB and SSA’s Chicago Regional
Office. We conducted our review in accordance with generally accepted government
auditing standards.

RESULTS OF REVIEW

To address Senator Feingold’s request that we give full and fair consideration to his
constituent’s concerns, we reviewed the actions the DDB took after receiving the
allegation. DDB staff informed us that, since it does not require racial information for
disability applicants, the DDB did not assess the racial issues alleged by Senator


1
 The Diagnostic and Statistical Manual of Mental Disorders, Fourth Edition, Text Revision, 2000 defines
malingering as a term used for individuals who intentionally pretend to have symptoms of mental or
physical illness to achieve financial or other gain or to avoid criminal conviction or unwanted duty.
Page 3 – James F. Martin


Feingold’s constituent. Both SSA and the AA/CRC informed us that, since the DDB did
not find any basis for the discrimination allegation, both Agencies considered this
allegation to be closed. As a result, we cannot draw any conclusions on the merits of
the allegation at this time.

Neither SSA nor AA/CRC did independent analysis regarding this allegation—the DDB
conducted all analysis performed. SSA advised us that its Regional Office was involved
in determining the necessary steps to be taken to respond to the complaint and worked
closely with its Regional Office of General Counsel. Further, based on advice provided
by Counsel, the SSA Regional Office assumed an advisory role since the complaint was
addressed to State entities.

According to DDB and SSA staff, the changes to the DDB’s policies and practices
(random selection of CE vendors, training vendors on malingering issues, and reviews
of CE vendor outliers) were not implemented to address any particular practices or
shortcomings on the part of specific CE vendors but were to reduce the potential for
discrimination in its CE process.

In June 2001, DDB quality assurance staff reviewed 26 of the named psychologist’s and
41 of a second psychologist’s CE reports from the prior 6 months and determined that,
in all cases, the DDB had made the correct disability decision. However, quality
assurance staff determined that four of the named psychologist’s reports had comments
that appeared to be “less than objective” reporting. (Two cases were
allowances/continuances, and two cases were denials/cessations.) In one of the four
cases reviewed, a CE vendor review sheet completed by a DDB medical consultant
raised further serious questions concerning the named psychologist. The review sheet
included the following: “[the named psychologist]…appears to often assume the worst
and she is a bit over suspicious. Has a bit of a vigilante attitude. I routinely take her
comments w/ [with] a grain of salt.”

The DDB completed a Statistical Study and Analyses of Consultative Examinations
Calendar Year 2000 that involved all cases in which a mental impairment was primary
and the named psychologist or the second psychologist performed the CEs (the named
psychologist performed approximately 197 CEs, and the second psychologist performed
approximately 1,003 CEs in Calendar Year 2000). This study found that where these
two psychologists performed CEs, DDB allowance rates were consistently lower than
when their peers performed the CEs. For some categories, cases for which they
performed CEs were two to four times more likely to be denied compared to their peers.

However, the lower allowance rates for the two specific CE providers were not
conclusive in indicating a problem because the DDB was allowing the two doctors to be
selected for CEs in cases suspected of malingering. For the period October 1999
through July 2000, the named psychologist was specifically requested to perform the
CE in 146 of 240 exams (61 percent) scheduled with her, and the second psychologist
was specifically requested in 365 of 1,289 exams (28 percent) scheduled with him.
Page 4 – James F. Martin


While it is true the DDB did not obtain racial information on all disability applicants, racial
information is available from other sources. For example, racial information can be
included in CE reports or it can be obtained directly from the claimants. The DDB’s
protocol for wording psychological reports states “Be consistent across reports in
reporting race; do not report it only for minorities. If in doubt about a person’s race or
what are currently, locally or personally acceptable terms, ask.”2 After reviewing the
10 CE reports the constituent provided Senator Feingold, we noted that the named
psychologist records the race of applicants in her CE reports. We informed DDB staff
that the named psychologist included the race of applicants in the 10 CE reports we
examined. DDB staff said they had not reviewed the named psychologist’s CE reports
to determine whether she used “less than full effort” or “less than objective reporting” for
minorities more frequently than for non-minorities.3

In August 2001, the DDB informed the named psychologist and a second psychologist
they would no longer be used for any CEs at the end of Calendar Year 2001. However,
in December 2001, the DDB reversed this decision and, to date, continues to use both
doctors.

In September 2001, the Director of AA/CRC sent a letter to Senator Feingold’s
constituent informing him that, by the end of the year, the DDB would complete an
action plan that would resolve the issues he had raised. The action plan included

    •   the random selection of vendors to perform CEs (effective January 17, 2001 the
        DDB did this);

    •   enhancing staff and vendor competencies through training on malingering issues
        (training for the two psychologists occurred in January 2002); and

    •   ongoing reviews of CE vendor outliers.

In October 2001, SSA’s Chicago Regional Commissioner wrote to the DDB’s parent
agency to convey his concern about the civil rights complaint filed by Senator Feingold’s
constituent. The SSA Regional Commissioner urged the State to proceed with a full
and expeditious investigation and informed the State that SSA’s Center for Disability
was ready to assist in whatever way the State required. The Regional Commissioner
stated that he asked the DDB to move as quickly as feasible to take the steps outlined
by the AA/CRC in addressing the allegations.

2
 Page 56 of The Clinician’s Thesaurus 3 – The Guidebook for Wording Psychological Reports and Other
Evaluations, Third Edition, Revised.

3
  DDB staff defined “less than full effort” as using such wording as “Could have done better if they tried
harder.” DDB staff defined “less than objective reporting” as editorializing and making remarks that are
not germane to the disability decision but could influence the disability decision. For example one of the
named psychologist’s reports included the following about a mother and a 6-year old child, “She tended
to talk irritably to him, and one time, when he told her he had to go the bathroom, she irritably told him to
wait. At this point, the examiner asked the claimant’s aunt, who was in the waiting room, to take him to
the bathroom because it appeared that [the] mother could not be bothered to do that for him.”
Page 5 – James F. Martin


In February 2003, the DDB received a complaint from the Wisconsin Correctional
Service Community Support Program that outlined concerns regarding CEs the named
psychologist conducted for the DDB. Regarding one CE written by the named
psychologist, the following was written.

        I cannot adequately express my bafflement at the decision to deny [the applicant]
        disability benefits. He is no angel but he did not ask to have this debilitating
        illness. Believe it or not, [the applicant] is actually a fairly civil and interesting
        person. If he is stable and on his medications and not engaging in substance
        use. I believe [the named psychologist’s] evaluation has many weaknesses which
        I have tried to point out, and her report did not help to bring clarity to the question
        of [the applicant’s] disability. If I was a cynic, I might think that there were some
        folks who, for whatever reasons, did not want to, or felt it was wrong to
        allow…[the applicant’s] claim for disability so they said there needed to be a
        consultative examination, and then made sure it got assigned to [the named
        psychologist]. But of course, I am not a cynic. I should point out that I urged [the
        applicant] to appeal this denial because I thought it was wrong. He had some
        irrational reason for not wanting to appeal which I can not remember.

At the end of this letter the following was written.

        This is very important. I believe there are people who should be getting disability
        benefits who are being denied eligibility because of her reports. This is unfair to
        the individual involved, but it is also unfair to the larger community of which this
        individual is a part. This is even more concerning when you consider that many
        of these individuals will end up becoming involved in the criminal justice system
        or entering psychiatric hospitals because of untreated psychiatric problems.
        Having both an income and medical insurance are both key components for
        establishing and maintaining stability for any individual with significant psychiatric
        problems. Some people might see [the named psychologist] as saving the
        taxpayer money when in fact the human and financial costs that come about as a
        result of her efforts are probably incalculable.

In March 2003, the DDB received another complaint about the named psychologist.
This complaint was made by the mother of a child who had a CE with the named
psychologist. The mother stated that for every question, the psychologist encouraged
the child to do better and said things like “I know you know the answer.” The mother
also stated that when she told the psychologist that her child could not sit still, the
psychologist replied, “Yes, she can.” The complaint also stated that the psychologist
commented that the child was “irritating” her and that the psychologist was skeptical that
the child heard voices. The child’s mother was concerned about the psychologist’s
overall attitude at the exam.

The DDB received an additional complaint about the named psychologist in April 2003
in which the mother of a child sent to the psychologist called the DDB and was very
upset. The mother stated the psychologist was “rude” and “disrespectful.”
Page 6 – James F. Martin


In May 2003, we obtained from the DDB a report of mental CEs performed in
February 2002 and later.4 We determined that the allowance rates for the named
psychologist and the second psychologist continued to be lower than their peers.
However, the allowance rates in their cases were higher after the DDB changed its
process to no longer allow selection of specific CE providers in cases suspected of
malingering, and the DDB and SSA staff visited the two psychologists to address
improving their CE reports.

                                       Allowance Rate            Allowance         Allowance
             Allowance                  in the Named           Rate in the 2nd    Rate for Other
                Rate                   Psychologist's          Psychologist’s      Mental CE
            Comparisons5                    Cases                  Cases            Providers
                                          (Percent)              (Percent)          (Percent)
        DDB Study
        Conducted in                          26.5                    28.6              49.3
        January 2001
        Analysis Performed
        by DDB for OIG in                     32.5                    35.1              47.8
        May 2003

In May 2003, we obtained the results of the DDB’s review of cases in which the named
psychologist and the second psychologist performed CEs. Specifically, for the period
September through December 2001, in all cases where these two providers performed
a CE that led to a denial/cessation, the DDB requested a second CE with a different CE
provider. Based on the second CE, 14 of the named psychologist’s 73 cases
(19.2 percent) and 54 of the second psychologist’s 382 cases (14.1 percent) were
changed from denials/cessations to allowances/continuances. Under its normal claims
processing, applicants denied benefits have appeal rights. Reconsideration is the first
level of appeal if an individual disagrees with his or her initial disability determination. A
reconsideration is an independent and thorough reexamination of the evidence used for
the initial determination.6 In addition, during Calendar Year 2002, SSA reversed
14.7 percent of appealed cases during its reconsideration process nationwide.

In June 2003, we obtained from the DDB a list of the names, Social Security numbers
and the DDB’s results for 2,836 cases with CEs performed by the named psychologist
between November 1991 and June 2003. Of these 2,836 cases, 501 (18 percent) were
allowances or continuances, and 2,335 (82 percent) were denials or cessations.7 The
data file provided by the DDB did not include any racial information.
4
  We asked the DDB to analyze allowance rates for CE reports after February 2002 because the DDB
visited the two psychologists to discuss improving their CE reports in January 2002.
5
    The reports used to prepare this chart did not include racial information.
6
    Program Operations Manual System, section GN 03102.100 B.
7
 For initial disability claims, SSA uses the terms “allowance” or “denial.” For cases where an individual
was determined to be disabled in the past and SSA is completing a review to determine whether the
beneficiary is still disabled, SSA uses the terms “continuance” or “cessation.”
Page 7 – James F. Martin


CONCLUSIONS AND RECOMMENDATIONS
Although DDB staff did not assess the racial issues alleged by Senator Feingold’s
constituent in his complaint, they did conclude that changes were needed to the DDB’s
policies and practices. SSA and the AA/CRC relied on the DDB to assess the allegation
and did not conduct any independent analysis. Since the DDB, SSA and AA/CRC did
not assess the racial issues alleged, we cannot draw any conclusions on the merits of
the allegation at this time.

Although the DDB does not require racial information, these data could be obtained
from CE reports or other sources. Therefore, to address the issue of possible racial
discrimination, we recommend the Agency review a statistically valid sample of the
named psychologist’s CE reports to determine whether her reports were racially biased.

AGENCY COMMENTS
SSA agreed with our recommendation, stating its plan to develop a methodology to yield
a statistically valid comparison of CE reports maintained by the DDS for claimants in the
geographic area served by the CE provider. The Agency also stated that, since the
audit, the DDB has notified this CE provider that it will no longer schedule CEs with the
provider in question. SSA stated that this decision was based on a number of recent
complaints unrelated to the OIG’s review.




                                            S
                                               Steven L. Schaeffer
                                            Appendices
Appendix A – Acronyms
Appendix B – Consultative Examinations
Appendix C – Agency Comments
Appendix D – OIG Contacts and Staff Acknowledgments
                                                    Appendix A
Acronyms
AA/CRC     Office of Affirmative Action and Civil Rights Compliance

CE         Consultative Examination

DDB        Disability Determination Bureau

OIG        Office of the Inspector General

POMS       Program Operations Manual System

SSA        Social Security Administration
                                                                       Appendix B
Consultative Examinations
In evaluating disability on the basis of a mental disorder, the Social Security
Administration (SSA) requires evidence to establish both the existence of a medically
determinable mental impairment and the degree of limitation caused by the impairment.1
The existence of a medically determinable impairment must be established by medical
evidence consisting of signs, symptoms and/or laboratory or psychological test
findings.2 Such evidence is typically provided by the individual’s treating sources.

However, under the following circumstances, the Disability Determination Bureau (DDB)
may purchase a consultative examination (CE).

      1. Additional medical evidence is needed for adjudication, and the evidence is not
         available from the claimant’s medical source(s).

      2. The treating source is not an acceptable medical source for evidence of a mental
         impairment.

      3. The treating source’s evidence is unobtainable.

      4. There is a conflict, inconsistency, ambiguity or insufficiency in the evidence that
         cannot be resolved by recontacting the treating source(s).3

The CE report is used in combination with all other evidence in the case file to
determine the existence and severity of any mental impairment(s). If the existence of a
severe mental impairment is established (one that causes more than minimal
restrictions in work-related activities), the DDB evaluates the claim to determine whether
the criteria for listings-level impairments are met.4 In making determinations on
claimants age 18 and older, if a finding of disability or no disability cannot be made on
current work activity or on medical considerations alone, the DDB determines whether
the claimant has the residual functional capacity to perform past relevant work or other
work available in the national economy. If the impairment has lasted or is expected to
last 12 months and listings-level severity is met or if the claimant cannot perform past
work or other work, the claimant is found to be disabled.5


1
    Program Operations Manual System (POMS), section DI 24505.025 B.
2
    POMS, section DI 24501.020 A.
3
    POMS, section DI 22510.005 A and B.
4
    POMS, section DI 22001.020 A.
5
    POMS, sections DI 22001.025 A and DI 22001.030 B.


                                                C-1
                        Appendix C
Agency Comments




                  C-1
                                         SOCIAL SECURITY
MEMORANDUM


Date:      August 14, 2003                                                        Refer To: S2G5D2

To:        Assistant Inspector General for Audit

From:      Regional Commissioner
           Chicago

Subject:   Use of Mental Consultative Examinations by the Wisconsin Disability Determination Bureau
           (A-01-03-23090)--(Your Memorandum Dated July 18, 2003)—REPLY

           Thank you for the opportunity to provide comments on the above report. We are open to the idea
           of conducting a study of the examinations by the consultative examination (CE) provider in
           question. However, given the limitations of the available data, we will need to develop a
           methodology that would yield a statistically valid study.

           In early 2001, a special Quality Assurance study of cases with examinations by this provider
           found that the decisions were correct in all cases and consistent with the evidence as a whole.
           We plan to compare CE reports that have been maintained by the DDS for claimants in the
           geographic area served by the provider. Racial information about claimants is not available on
           DDS or SSA records unless the provider furnished this information on their CE reports. The
           provider in question did provide such information. We will attempt to find a sufficient number of
           reports with racial information from other providers in the area to assess the issues alleged in a
           statistically valid manner.

           Since the audit, the Wisconsin Disability Determination Service has informed us that they have
           notified this provider that as of the end of August they would no longer schedule consultative
           examinations with the provider. This decision was based on a number of recent complaints
           unrelated to the review conducted by your office.

           Questions about this memorandum may be directed to Jerry Kayser, Director of the Center for
           Disability Programs, at 312-575-4201.


                                                                  /s/
                                                               James F. Martin
                                                               Regional Commissioner


           cc: Deputy Commissioner for Operations


                                                         C-2
                                                                Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division (617) 565-1819

   Judith Oliveira, Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

   David Mazzola, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-03-23090.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
